                            SOCIAL SECURITY

                                      August 18, 2006


MEMORANDUM FOR THE HONORABLE HAROLD DAMELIN
               INSPECTOR GENERAL
               DEPARTMENT OF THE TREASURY


The attached report presents the results of our external quality control review of the
Department of the Treasury, Office of Inspector General’s Office of Audit. Your
response to the draft report is included as Appendix C.

We agree with your proposed corrective action to the recommendation. We thank you
and your staff for their assistance and cooperation during the conduct of the review.
If you have any questions, please have your staff contact Steven L. Schaeffer, Assistant
Inspector General for Audit, at (410) 965-9700.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Attachment




           SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
                             SOCIAL SECURITY
                                      August 18, 2006


MEMORANDUM FOR THE HONORABLE HAROLD DAMELIN
               INSPECTOR GENERAL
               DEPARTMENT OF THE TREASURY


We have reviewed the system of quality control for the audit function of the Department
of the Treasury (Treasury), Office of Inspector General (OIG) in effect for the year
ended March 31, 2006. A system of quality control encompasses the OIG’s
organizational structure, and the policies adopted and procedures established to
provide it with reasonable assurance of conforming with generally accepted government
auditing standards (GAGAS). The elements of quality control are described in GAGAS,
promulgated by the Comptroller General of the United States. The design of the
system, and compliance with it in all material respects, are the responsibility of Treasury
OIG. Our objective was to determine whether the internal quality control system was
adequate as designed and complied with to provide reasonable assurance that
applicable auditing standards, policies, and procedures were met. Our responsibility is
to express an opinion on the design of the system and the OIG’s compliance with the
system based on our review.

Our review was conducted in accordance with the guidelines established by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity
and Efficiency. In performing our review, we obtained an understanding of the system
of quality control for the OIG. In addition, we tested compliance with the OIG’s quality
control policies and procedures to the extent we considered appropriate. These tests
included the application of the OIG’s policies and procedures on selected audits.
Because our review was based on selective tests, it would not necessarily disclose all
weaknesses in the system of quality control or all instances of lack of compliance with it.
Nevertheless, we believe that the procedures we performed provide a reasonable basis
for our opinion.

Because there are inherent limitations in the effectiveness of any system of quality
control, departures from the system may occur and not be detected. Also, projection of
any evaluation of a system of quality control to future periods is subject to risk that the
system of quality control may become inadequate because of changes in conditions, or
because the degree of compliance with the policies or procedures may deteriorate.

Our scope and methodology can be found at Appendix A. We also provide some
general comments regarding Treasury OIG in Appendix B.




           SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
Page 2 – The Honorable Harold Damelin

In our opinion, the system of quality control for the audit function of the Treasury OIG in
effect for the year ended March 31, 2006 has been designed to meet the requirements
of the quality control standards established by the Comptroller General of the
United States for a Federal Government audit organization and was complied with
during the year ended to provide the OIG with reasonable assurance of conforming with
applicable auditing standards, policies, and procedures. We noted, however, one
condition that warrants your attention though it did not impact our opinion.

FINDING AND RECOMMENDATION

We identified an opportunity for Treasury OIG to improve the integrity of its statistical
projections. In one of the nine audits reviewed, the report contained statistical
projection errors. We believe these errors could have been avoided had the statistical
projection results been reviewed by a specialist. Treasury OIG's policies and
procedures did not require that a specialist review and approve the results of statistical
projections. The OIG’s policies required that a specialist be consulted in planning
statistical projections. The policies also required the audit team report any deviations
from the sampling plan to the specialist. However, there was no requirement that a
specialist review how the results of sampling were calculated or reported.

In the audit in question, the statistical specialist was consulted in planning the sampling
methodology, but there was no indication the projection of the sample results was
reviewed. In this audit report, the lower and upper limits for the statistical projection
were calculated and reported incorrectly. While the errors in the lower and upper limits
were not material to the findings and recommendations made in the report, we believe
Treasury OIG can strengthen the integrity of its statistical projections and reduce the
possibility of future errors by revising its policies and procedures to include a specialist’s
review of sample projection results.

We recommend Treasury OIG strengthen its policies and procedures for calculating and
reporting the results of statistical information. For example, Treasury OIG could
consider establishing a policy requiring that a specialist review the results of statistical
sampling to ensure accurate reporting. Treasury OIG could also consider specifically
including an item on its independent review or quality control checklists to ensure a
specialist has approved the reporting of all statistical results.

In responding to our draft report, Treasury OIG agreed with our recommendation. See
Appendix C for the full text of Treasury OIG’s comments.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                                  Inspector General
                                                                      Appendix A

Scope and Methodology
We tested compliance with the Department of the Treasury (Treasury), Office of
Inspector General’s (OIG) system of quality control to the extent we considered
appropriate. These tests included a review of eight performance audits, one financial
statement audit performed by Treasury OIG staff, and monitoring activities covering the
Fiscal Year 2005 financial statements for Treasury that were performed under contract.
We also reviewed recent internal quality control reviews performed by Treasury OIG.

Offices Reviewed

We visited Treasury OIG’s Headquarters in Washington, D.C. and its Boston,
Massachusetts field office.

Audit Reports Reviewed

  Report          Report                                     Report
 Number            Date                                       Title
OIG-04-035   June 29, 2004       Bureau of Engraving and Printing Controls Over Security
                                 Need to be Improved
OIG-05-032   March 23, 2005      TERRORIST FINANCING/MONEY LAUNDERING: Office
                                 of Terrorist Financing and Financial Crimes Needs to
                                 Refine Measures for Its Performance Budget and
                                 Implement a Data Collection and Reporting System
OIG-05-034   March 31, 2005      TERRORIST FINANCING/MONEY LAUNDERING:
                                 Additional Outreach and System Enhancements are
                                 Needed to Encourage Greater Use of FinCEN’s BSA
                                 E-Filing
OIG-05-038   May 16, 2005        INFORMATION TECHNOLOGY: The Treasury
                                 Communications System’s Disaster Recovery Capability
                                 Has Improved
OIG-05-040   July 13, 2005       INFORMATION TECHNOLOGY: Mint’s Computer Security
                                 Incident Response Capability Needs Improvement
OIG-06-003   October 31, 2005    Audit of the United States Mint's Schedule of Custodial
                                 Gold and Silver Reserves as of September 30, 2005 and
                                 2004
OIG-06-010   December 2, 2005    BILL AND COIN MANUFACTURING: The Bureau of
                                 Engraving and Printing Should Ensure That Its Currency
                                 Billing Rates Include All Costs and That Excess Working
                                 Capital Is Deposited in the General Fund
OIG-06-028   February 10, 2006   MAJOR ACQUISITIONS: Treasury Communications
                                 Enterprise Procurement was Poorly Planned, Executed,
                                 and Documented
OIG-06-029   March 23, 2006      INTERNATIONAL ASSISTANCE PROGRAMS: Review of
                                 Treasury Activities for Iraq Reconstruction
                                                                   Appendix B

General Comments
We observed numerous positive practices in Treasury OIG’s audit organization. Most
importantly, the audit staff showed a high level of professionalism and expertise. The
audit staff displayed a thorough knowledge during discussions concerning the audits we
reviewed. Also, the audit organization’s policies and procedures had been thoroughly
reviewed and updated since its last external quality control review.

We also observed noteworthy practices and controls instituted to help ensure audits
were performed in accordance with professional standards. In particular, the OIG has
an extensive quality control checklist.
                                        Appendix C

Treasury Office of the Inspector General Comments
